BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No.
BENJAMIN CALEB TROTT,

Petitioner,
V.

STATE OF MARYLAND,

Respondent.
As required by Supreme Court Rule 33. l(h), I certify
that the Petition for Writ of Certiorari contains 8,369
words, excluding the parts of the Petition that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on August 24, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

JOHN 0. GALLAGHER
Notary Public, Slate of Ohio
My Commission Expires
rebrH.:>'V 14, 2023

